Certificate of Compliance

No. 19-

Glen Plourde,
Petitioner
v.
Ashley Poulin,
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of Certiorari contains 8990 words, verified by Microsoft Word of the
Microsoft Office Suite 365 Build 11929.20300, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and accurate.
Executed on September 22, 2019

